       DEPARTMENT OF HEALTH &. HUMAN SERVICES	                                   Office of Inspector General


                                                                                 Washington, D.C.	 20201




                                        JUN -1 2009

TO:	           Charlene Frizzera
               Acting Administrator
               Centers for Medicare & Medicaid Services


FROM:	         Joseph E. Vengrin   IL--i' ~_f,Yl ~
               Deputy Inspector  6e;~l for AUdi;rs-er~ces

SUBJECT:	      Review of Medicaid Outpatient Drug Expenditures in Michigan for the Period
               October 1, 2004, Through September 30, 2005 (A-05-08-00048)


Attached is an advance copy of our final report on Medicaid outpatient drug expenditures in
Michigan for the period October 1,2004, through September 30, 2005. We will issue this report
to the Michigan Department of Community Health (the State agency) within 5 business days.

All States offer outpatient prescription drugs to eligible Medicaid beneficiaries. Most States,
including Michigan, administer their Medicaid prescription drug programs in accordance with
the Medicaid drug rebate program. The program generally pays for covered outpatient drugs if
the drug manufacturers have rebate agreements with the Centers for Medicare & Medicaid'
Services (CMS) and pay rebates to the States. Under the drug rebate program, CMS provides the
States with a quarterly Medicaid drug tape, which lists all covered outpatient drugs. CMS
guidance instructs the States to use the tape to verify coverage of the drugs for which they claim
reimbursement.

Our objective was to determine whether the State agency's claims for reimbursement of
Medicaid outpatient drug expenditures for Federal fiscal year (FY) 2005 complied with Federal
requirements.

The State agency's claims for reimbursement of Medicaid outpatient drug expenditures for
FY 2005 did not always comply with Federal requirements. The State agency claimed $186,242
($105,618 Federal share) for drugproducts that were not eligible for Medicaid coverage because
they were either (1) terminated drugs for which the termination dates were listed on the CMS
quarterly drug tape before the drugs were dispensed or (2) drugs listed on the CMS quarterly
drug tape as less than effective. The State agency also claimed $5,180,336 ($2,937,769 Federal
share) for drug products that were not listed on the quarterly drug tapes. Because the State
agency did not verify with CMS whether the drugs not listed on the tapes were eligible for
Medicaid coverage, these drug expenditures may not be allowable for M~dicaid reimbursement.
Page 2 – Charlene Frizzera


The State agency had inadequate controls to ensure that all of its claims for outpatient drug
expenditures complied with Federal requirements.

We recommend that the State agency:

   •   refund $105,618 to the Federal Government for drug expenditures that were not eligible
       for Medicaid coverage;

   •   work with CMS to resolve $2,937,769 in payments for drugs that were not listed on the
       quarterly drug tapes and that may not have been eligible for Medicaid coverage; and

   •   strengthen internal controls to ensure that claimed Medicaid drug expenditures comply
       with Federal requirements, specifically:

           o claim expenditures only for drugs that are dispensed before the termination dates
             listed on the quarterly drug tapes;

           o claim expenditures only for drugs that are not listed as less than effective on the
             quarterly drug tapes;

           o verify whether drugs not listed on the quarterly drug tapes are covered under the
             Medicaid program and notify CMS when drugs are missing from the tapes; and

           o implement review and reconciliation procedures to ensure that Medicaid drug
             expenditures reported on the Form CMS-64 are accurate, supportable, and in
             compliance with all applicable requirements.

In written comments on our draft report, the State agency concurred with our first and second
recommendations. The State agency also described corrective actions it had taken to strengthen
its internal controls to ensure that claimed Medicaid drug expenditures comply with Federal
requirements.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov
or Marc Gustafson, Regional Inspector General for Audit Services, Region V, at (312) 353-2621
or through e-mail at Marc.Gustafson@oig.hhs.gov. Please refer to report number A-05-08-
00048 in all correspondence.


Attachment
                           DEPARTMENT OF HEALTH AND HUMAN SERVICES

                                        OFFICE OF AUDIT SERVICES

                                       233 NORTH. MICHIGAN AVENUE
                     REGION V
                                         CHICAGO,ILLINOIS 60601                        . OI'Fles:OP"
                                                                                   INSPECTOR GE:NERAL




                                        JUN - 5 2009
 Report Number: A-05-08-00048

. Ms. Janet Olszewski
  Director
  Michigan Department of Community Health
  Capital View Building
  201 TownsendStreet
  Lansing, Michigan 48913

. Dear Ms. Olszewski:

 Enclosed is the u.s. Department of Health and Human Services (HHS), Office ofInspector
 General (OIG), final report entitled "Review ofMedicaid Outpatient Drug Expenditures in
 Michigan for the Period October 1, 2004, Through September 30, 2005." We will forward a
 copy of this report to the HHS action official noted on the following page for review and any
 action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from-the date ofthis letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

 Pursuant to the Freedom ofInformation Act, 5 U.S.C. § 552, DIG reports generally are made
 available to the public to the extent that information in the report is not subj~ct to exemptions in
 the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or

contact David Markulin, Audit Manager, at (312) 353-1644 or through e-mail at

David.Markulin@oig.hhs.gov. Please refer to report number A-05-08"'-00048 in all

correspondence.


                                                Sincerely,



                                                Marc Gustafson
                                                Regional Inspector General
                                                 for Audit Services


Enclosure
Page 2 – Ms. Janet Olszewski


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




      REVIEW OF MEDICAID
       OUTPATIENT DRUG
   EXPENDITURES IN MICHIGAN
        FOR THE PERIOD
   OCTOBER 1, 2004, THROUGH
      SEPTEMBER 30, 2005




                        Daniel R. Levinson
                         Inspector General

                            June 2009
                          A-05-08-00048
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Michigan, the Department of Community
Health (the State agency) administers Medicaid.

In addition to providing mandatory Medicaid services, States may offer certain optional services,
such as outpatient prescription drugs, to eligible Medicaid beneficiaries. Most States, including
Michigan, administer their Medicaid prescription drug programs in accordance with the
Medicaid drug rebate program. The program generally pays for covered outpatient drugs if the
drug manufacturers have rebate agreements with CMS and pay rebates to the States. Under the
drug rebate program, CMS provides the States with a quarterly Medicaid drug tape, which lists
all covered outpatient drugs, indicates a drug’s termination date if applicable, and specifies
whether the Food and Drug Administration has determined the drug to be less than effective.
CMS guidance instructs the States to use the tape to verify coverage of the drugs for which they
claim reimbursement.

In Michigan, the State agency claims Medicaid expenditures on Form CMS-64, “Quarterly
Medicaid Statement of Expenditures for the Medical Assistance Program” (CMS-64). CMS
reimburses the State agency based on the Federal medical assistance percentage for the majority
of claimed Medicaid outpatient drug expenditures.

OBJECTIVE

Our objective was to determine whether the State agency’s claims for reimbursement of
Medicaid outpatient drug expenditures complied with Federal requirements.

SUMMARY OF FINDINGS

The State agency’s claims for reimbursement of Medicaid outpatient drug expenditures for
fiscal year 2005 did not fully comply with Federal requirements. Of the $987 million
($560 million Federal share) claimed, $105,618 (Federal share) represented expenditures for
drug products that were not eligible for Medicaid coverage because they were either
(1) terminated drugs for which the termination dates were listed on the CMS quarterly drug tape
before the drugs were dispensed or (2) drugs listed on the CMS quarterly drug tape as less than
effective. An additional $2,937,769 (Federal share) represented expenditures for drug products
that were not listed on the quarterly drug tapes. Because the State agency did not verify whether
the drugs missing from the tapes were eligible for Medicaid coverage, these drug expenditures
may not have been allowable for Medicaid reimbursement.



                                                i
The State agency improperly claimed other Medicaid services totaling $395,185 (Federal share)
as drug expenditures on the CMS-64. During our audit, the State agency reclassified the
expenditures and adjusted the CMS-64, resulting in no net effect to the claimed Federal
reimbursement. For the remainder of the $987 million ($560 million Federal share) claimed, we
identified no errors with respect to whether the drugs were terminated, less than effective,
included on the CMS quarterly drug tapes, or supported with adequate documentation.

The State agency had inadequate controls to ensure that all of its outpatient drug expenditures
complied with Federal requirements.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $105,618 to the Federal Government for drug expenditures that were not eligible
       for Medicaid coverage;

   •   work with CMS to resolve $2,937,769 in payments for drugs that were not listed on the
       quarterly drug tapes and that may not have been eligible for Medicaid coverage; and

   •   strengthen internal controls to ensure that claimed Medicaid drug expenditures comply
       with Federal requirements, specifically:

           o claim expenditures only for drugs that are dispensed before the termination dates
             listed on the quarterly drug tapes;

           o claim expenditures only for drugs that are not listed as less than effective on the
             quarterly drug tapes;

           o verify whether drugs not listed on the quarterly drug tapes are covered under the
             Medicaid program and notify CMS when drugs are missing from the tapes; and

           o implement review and reconciliation procedures to ensure that Medicaid drug
             expenditures reported on the CMS-64 are accurate, supportable, and in
             compliance with all applicable requirements.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our first and second
recommendations. The State agency also described corrective actions it had taken to strengthen
its internal controls to ensure that claimed Medicaid drug expenditures comply with Federal
requirements.

The State agency’s comments are included in their entirety as the Appendix.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicaid Program................................................................................................1
              Medicaid Outpatient Prescription Drug Program ................................................1
              Reimbursement of Medicaid Expenditures..........................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope....................................................................................................................2
               Methodology ........................................................................................................2

FINDINGS AND RECOMMENDATIONS ............................................................................3

          CLAIMS FOR TERMINATED DRUGS ........................................................................3

          CLAIMS FOR LESS-THAN-EFFECTIVE DRUGS......................................................4

          CLAIMS FOR DRUGS NOT LISTED ON QUARTERLY DRUG TAPES..................4

          CLAIMS FOR INADEQUATELY SUPPORTED DRUG EXPENDITURES...............5

          INADEQUATE CONTROLS TO DETECT UNALLOWABLE AND
            POTENTIALLY UNALLOWABLE CLAIMS FOR DRUG EXPENDITURES........6

          REIMBURSEMENT OF UNALLOWABLE AND POTENTIALLY
           UNALLOWABLE CLAIMS FOR DRUG EXPENDITURES....................................6

          RECOMMENDATIONS.................................................................................................6

         STATE AGENCY COMMENTS.....................................................................................7

APPENDIX

          STATE AGENCY COMMENTS




                                                                    iii
                                               INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Michigan, the Department of Community
Health (the State agency) administers the Medicaid program.

State Medicaid programs must provide certain medical services, including inpatient and
outpatient hospital, physician, and family planning services. States also may offer certain
optional services, such as outpatient prescription drugs, as long as the services are included in
their approved State plans.

Medicaid Outpatient Prescription Drug Program

All States offer outpatient prescription drugs to eligible Medicaid beneficiaries. Most States,
including Michigan, administer their Medicaid prescription drug programs in accordance with
the Medicaid drug rebate program. 1 The program generally pays for covered outpatient drugs if
the drug manufacturers have rebate agreements with CMS and pay rebates to the States. The
rebate agreements require manufacturers to provide a list of all covered outpatient drugs to CMS
quarterly. CMS includes these drugs on a quarterly Medicaid drug tape, makes adjustments for
any errors, and sends the tape to the States. The tape indicates a drug’s termination date 2 if
applicable, specifies whether the drug is less than effective, 3 and includes information that the
States use to claim rebates from drug manufacturers. CMS guidance instructs the States to use
the tape to verify coverage of the drugs for which they claim reimbursement and to calculate the
rebates that the manufacturers owe.




1
 The Omnibus Budget Reconciliation Act of 1990 established the Medicaid drug rebate program effective January 1,
1991. The program is set forth in section 1927 of the Act. Arizona is the only State that does not participate in the
program.
2
 The termination date, which the manufacturer submits to CMS, reflects the shelf-life expiration date of the last
batch sold for a particular drug code. However, if the drug is pulled from the market for health or safety reasons, the
termination date is the date that the drug is removed from the market.
3
 The Food and Drug Administration determines whether drugs are less than effective. Such drugs lack substantial
evidence of effectiveness for all conditions of use prescribed, recommended, or suggested in their labeling.


                                                          1
Reimbursement of Medicaid Expenditures

In Michigan, the State agency claims Medicaid expenditures on Form CMS-64, “Quarterly
Medicaid Statement of Expenditures for the Medical Assistance Program” (CMS-64). CMS
reimburses the State agency based on the Federal medical assistance percentage (reimbursement
rate) for the majority of claimed Medicaid expenditures, including outpatient drug expenditures.

For Federal fiscal year (FY) 2005, Michigan’s Federal reimbursement rate for Medicaid
expenditures was 56.71 percent.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency’s claims for reimbursement of
Medicaid outpatient drug expenditures complied with Federal requirements.

Scope

The audit scope included $987 million ($560 million Federal share) in Medicaid outpatient drug
expenditures that the State agency claimed for FY 2005. We limited our testing of these
expenditures to determining compliance with specific Federal requirements and guidance related
to whether the drugs were (1) terminated, (2) less than effective, (3) included on the CMS
quarterly tapes, and (4) supported with adequate documentation.

We limited our internal control review to the State agency’s procedures for determining whether
the outpatient drugs were eligible for Medicaid coverage and were accurately claimed for
Federal reimbursement. We did not review the accuracy or completeness of the quarterly
Medicaid drug tapes.

We performed fieldwork from July through November 2008 at the State agency’s offices in
Lansing, Michigan.

Methodology

To accomplish our objective, we reviewed applicable Federal laws, regulations, and program
guidance and the State plan. We interviewed State agency officials responsible for identifying
and monitoring drug expenditures and rebate amounts. We also interviewed staff responsible for
reporting drug expenditures to CMS.

We used the quarterly drug tapes for the period October 1, 1999, through June 30, 2006. We
reconciled the amounts that the State agency reported on its CMS-64s to a detailed list of the
State agency’s outpatient drug expenditures. We also used the detailed list of drug expenditures
to determine whether the expenditures complied with Federal requirements. Specifically, we
determined whether the drugs for which the State agency claimed reimbursement were dispensed
after the termination dates listed on the quarterly drug tape or were listed as less than effective on



                                                  2
the tape. In addition, we determined whether CMS had included the termination dates on the
quarterly drug tape in a timely manner—that is, before terminated drugs could be dispensed. To
account for reasonable delays in processing data for terminated drugs, we used the first day of
the quarter after the State received the tape as the termination date if the termination dates were
provided to the States retroactively.

We also determined whether the drugs claimed for reimbursement were listed on the applicable
quarterly drug tape. If the drugs were not listed on the tape, we determined whether the State
agency had verified whether the drugs were eligible for Medicaid coverage.

We calculated the Federal share of the expenditures using the reimbursement rate (56.71 percent)
applicable for each quarter. We did not reduce the questioned drug expenditures by the rebate
amounts that the State received.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The State agency’s claims for reimbursement of Medicaid outpatient drug expenditures for
FY 2005 did not fully comply with Federal requirements. Of the $987 million ($560 million
Federal share) claimed, $105,618 (Federal share) represented expenditures for drug products that
were not eligible for Medicaid coverage because they were either (1) terminated drugs for which
the termination dates were listed on the CMS quarterly drug tape before the drugs were
dispensed or (2) drugs listed on the CMS quarterly drug tape as less than effective. An
additional $2,937,769 (Federal share) represented expenditures for drug products that were not
listed on the quarterly drug tapes. Because the State agency did not verify whether the drugs
missing from the tapes were eligible for Medicaid coverage, these drug expenditures may not
have been allowable for Medicaid reimbursement.

The State agency improperly claimed other Medicaid services totaling $395,185 (Federal share)
as drug expenditures on the CMS-64. During our audit, the State agency reclassified the
expenditures and adjusted the CMS-64, resulting in no net effect to the claimed Federal
reimbursement. For the remainder of the $987 million ($560 million Federal share) claimed, we
identified no errors with respect to whether the drugs were terminated, less than effective,
included on the CMS quarterly drug tapes, or supported with adequate documentation.

The State agency had inadequate controls to ensure that all of its outpatient drug expenditures
complied with Federal requirements.

CLAIMS FOR TERMINATED DRUGS

Pursuant to 21 CFR § 211.137, each drug must have an expiration date to ensure that the drug
meets certain standards, including strength and quality, at the time of its use. The expiration date

                                                 3
effectively establishes a shelf life for the product. The termination date equals the expiration
date of the last batch sold, except in cases when the product is pulled from the market. In those
cases, the termination date may be earlier than the expiration date.

According to the CMS Medicaid drug rebate program release to State Medicaid directors,
number 19, the States “MUST . . . ASSURE that claims submitted by pharmacists are NOT for
drugs dispensed AFTER the termination date. These should be rejected as invalid since these
drugs cannot be dispensed after this date.” (Emphasis in the original.)

The CMS Medicaid drug rebate program release to State Medicaid directors, number 130, states
that “. . . the CMS [quarterly drug tape] is the one to use for ALL data when you are dealing with
the drug rebate program.” The quarterly drug tapes list the Medicaid-covered drugs’ termination
dates as reported by the drug manufacturers.

For FY 2005, the State agency claimed $109,167 ($61,909 Federal share) in expenditures for
drugs that, according to the State’s records, were dispensed after the termination dates shown on
the quarterly drug tapes. For example, the State agency paid for the drug Butalbital, which was
dispensed on April 4, 2005. However, the drug’s termination date was August 31, 2004,
according to the tapes beginning with the quarter that ended December 31, 2003. The claimed
expenditure was unallowable because it occurred after the drug’s termination date, which was
listed on the quarterly drug tape at the time the State agency made the expenditure.

CLAIMS FOR LESS-THAN-EFFECTIVE DRUGS

Section 1903(i)(5) of the Act prohibits Federal Medicaid funding for drug products that are
ineligible for Medicare payment pursuant to section 1862(c) of the Act. Section 1862(c)
prohibits Federal funding for drug products determined to be less than effective for all conditions
prescribed, recommended, or suggested on the product’s label. According to the CMS Medicaid
drug rebate program release to State Medicaid directors, number 130: “. . . the CMS [quarterly
drug tape] is the one to use for ALL data when you are dealing with the drug rebate program.”
The quarterly drug tapes identify drugs that have been determined to be less than effective.

For FY 2005, the State agency claimed $77,075 ($43,709 Federal share) in expenditures for
drugs classified as less than effective on the quarterly drug tapes. For example, the State agency
paid for the drug Bellaspas, which was dispensed on August 14, 2005. However, CMS reported
the drug as less than effective on the tapes beginning with the quarter that ended December 31,
2003. The claimed expenditure was unallowable because the drug was dispensed after CMS
reported it as less than effective.

CLAIMS FOR DRUGS NOT LISTED ON QUARTERLY DRUG TAPES

Section 1927(a)(1) of the Act generally conditions Medicaid reimbursement for covered
outpatient drugs on a requirement that manufacturers of those products enter into rebate




                                                 4
agreements with CMS under which they pay rebates to the States. 4 The rebate agreements
require manufacturers to provide a list of all covered outpatient drugs to CMS quarterly. CMS
includes these drugs on the quarterly drug tapes and makes adjustments for any errors.
According to the CMS Medicaid drug rebate program release to State Medicaid directors,
number 130: “. . . the CMS [quarterly drug tape] is the one to use for ALL data when you are
dealing with the drug rebate program . . . . If [a drug code] that is not on the last CMS [quarterly
drug tape] you received is billed to you by a pharmacy . . . check with CMS to assure that the
[drug code] is valid . . . .” Furthermore, the CMS Medicaid drug rebate program release to State
Medicaid directors, number 44, provides: “States must check the [quarterly drug tape] to ensure
the continued presence of a drug product . . . .”

The CMS “Medicaid Drug Rebate Operational Training Guide,” page S-S13, states: “If you
have paid for [a drug code] that is NOT on [the quarterly drug tape] you should have checked to
make sure it was correct. If you paid a pharmacy for utilization on an invalid [drug code], you
may have to . . . recoup your funds.”

For FY 2005, the State agency claimed $5,180,336 ($2,937,769 Federal share) in expenditures
for drug products that were not listed on the quarterly drug tapes. The State agency did not
contact CMS to ensure that these drugs were eligible for Medicaid coverage under the Act. As a
result, the State agency did not have conclusive evidence that these payments were allowable
Medicaid expenditures.

CLAIMS FOR INADEQUATELY SUPPORTED DRUG EXPENDITURES

Section 1927 of the Act generally defines which covered outpatient drugs are allowable for
Federal reimbursement under the Medicaid program. To receive reimbursement for covered
drugs, States must maintain documentation identifying the specific drugs used. According to the
CMS “State Medicaid Manual,” section 2497.1: “Expenditures are allowable only to the extent
that, when a claim is filed, you have adequate supporting documentation in readily reviewable
form to assure that all applicable Federal requirements have been met.”

The State agency improperly claimed Medicaid services related to Title V (Maternal and Child
Health Services) totaling $395,185 (Federal share) as drug expenditures on the CMS-64. 5 The
State agency indicated that these expenditures were not drug related. During our audit, the State
agency reclassified and reported these services on the CMS-64 for the quarter that ended
June 30, 2008, resulting in no net effect to the claimed Federal reimbursement. These errors
occurred because the State agency did not sufficiently review and reconcile drug expenditures
reported on the CMS-64 to ensure that the amounts claimed were accurate, supported by
documentation, and in compliance with Medicaid requirements.



4
 Pursuant to section 1927(a)(3) of the Act, a State may exempt certain drugs from the requirement to be covered by
a drug rebate agreement if the State has determined that availability of the drug is essential to the health of Medicaid
beneficiaries and if certain other conditions are met.
5
 We did not determine whether the services were actually provided or represented allowable expenditures to be
claimed on the CMS-64.


                                                           5
INADEQUATE CONTROLS TO DETECT UNALLOWABLE AND
POTENTIALLY UNALLOWABLE CLAIMS FOR DRUG EXPENDITURES

The State agency did not have adequate controls to ensure that all claims for Medicaid drug
expenditures complied with Federal requirements or to detect unallowable and potentially
unallowable claims for reimbursement. The State agency also did not check the quarterly drug
tapes to ensure that the drugs were eligible for Medicaid coverage.

REIMBURSEMENT OF UNALLOWABLE AND POTENTIALLY
UNALLOWABLE CLAIMS FOR DRUG EXPENDITURES

The State agency claimed Federal reimbursement for certain drugs that were not eligible for
Medicaid coverage because they were terminated or less than effective. As a result, for
FY 2005, the State agency claimed unallowable expenditures totaling $186,242 ($105,618
Federal share) for these drugs. The State agency also claimed Federal reimbursement for drug
products that were not listed on the quarterly drug tapes. For these drugs, we set aside
potentially unallowable expenditures totaling $5,180,336 ($2,937,769 Federal share) for CMS
adjudication because the State agency did not determine whether the drugs were covered by
Medicaid.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $105,618 to the Federal Government for drug expenditures that were not eligible
       for Medicaid coverage;

   •   work with CMS to resolve $2,937,769 in payments for drugs that were not listed on the
       quarterly drug tapes and that may not have been eligible for Medicaid coverage; and

   •   strengthen internal controls to ensure that claimed Medicaid drug expenditures comply
       with Federal requirements, specifically:

          o claim expenditures only for drugs that are dispensed before the termination dates
            listed on the quarterly drug tapes;

          o claim expenditures only for drugs that are not listed as less than effective on the
            quarterly drug tapes;

          o verify whether drugs not listed on the quarterly drug tapes are covered under the
            Medicaid program and notify CMS when drugs are missing from the tapes; and

          o implement review and reconciliation procedures to ensure that Medicaid drug
            expenditures reported on the CMS-64 are accurate, supportable, and in
            compliance with all applicable requirements.



                                               6
STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our first and second
recommendations. The State agency also described corrective actions it had taken to strengthen
its internal controls to ensure that claimed Medicaid drug expenditures comply with Federal
requirements.

The State agency’s comments are included in their entirety as the Appendix.




                                               7
APPENDIX
APPENDIX
 Page 1 of 6
APPENDIX
 Page 2 of 6
APPENDIX
 Page 3 of 6
APPENDIX
 Page 4 of 6
APPENDIX
 Page 5 of 6
APPENDIX
 Page 6 of 6
